March 1, 2011

LINDA J. WELCH
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Facility Optimization: Southwest Area
        (Report Number DA-AR-11-003)

This report presents the results of our audit of facility optimization in the Southwest Area
(Project Number 10YG028DA000). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit from a random sample of districts nationwide. For the
Southwest Area, our objective was to identify opportunities to optimize existing real
estate in the Houston and Oklahoma Districts. See Appendix A for additional
information about this audit.

The two districts analyzed in the Southwest Area uses over 885 facilities covering
nearly 7 million square feet (SF) of interior space for its delivery and retail operations.
While the area employs these facilities, it has experienced a significant reduction in
workload in recent years. From fiscal years (FYs) 2005 to 2010, mail volume in the
Southwest Area has dropped more than 18 percent. Likewise, mail volume in the
Houston District has decreased by approximately 15 percent and in the Oklahoma
District by approximately 14 percent. This reduction in workload provides an opportunity
to reevaluate space needs and identify potential excess space.

Conclusion

In the Southwest Area, the Houston and Oklahoma districts have over 2.3 million SF in
excess of what their workload suggests they need. The U.S. Postal Service has the
option to optimize excess real property through:

      Disposal – selling property.
      Outleasing – leasing owned property.
      Subleasing/Reassignment – reassigning leased property.
      Development – investing in real estate projects.

With a major effort underway, the Postal Service has begun taking action to optimize
existing space. Specifically in the Houston and Oklahoma Districts, the Southwest Area
plans to dispose of 66,322 SF of this excess space through approved optimization
projects. Although it has made progress, the Postal Service can do more to dispose of
excess interior space more quickly.
Facility Optimization: Southwest Area                                                                   DA-AR-11-003



The opportunity to optimize excess interior space in the reviewed districts exists
because:

        Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

        The excess space reporting system does not track metrics such as dates or
         space conditions to allow for prioritizing disposal actions.

We estimate that if the Southwest Area initiates disposal1 action for the excess space
we identified in the Houston and Oklahoma Districts, there is an opportunity to realize
$99,618,0072 over typical and remaining lease terms. We consider this amount to be
funds put to better use.3 See Appendix B for our detailed analysis of this topic and
Appendix C for our calculation of monetary impact.

Our audit also noted that the Postal Service could be more aggressive in seeking
opportunities to fill the space needs of federal entities. In the districts reviewed, our
analysis shows that excess space identified at Postal Service facilities may be able to
accommodate 85 percent of current federal agencies’ space needs. This opportunity
exists because the Postal Service has not capitalized on the priority status it has for
filling federal agencies' space needs. By capitalizing on this status, the Postal Service
has another option for reducing its facility infrastructure size and generating additional
revenue. See Appendix D for more information.

We recommend the vice president, Operations, Southwest Area; district managers; area
managers; and the Southwest Facility Service Office manager work in coordination to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue opportunities with federal agencies as an option to optimize excess property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  The annualized savings is $9,961,801.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.


                                                           2
Facility Optimization: Southwest Area                                        DA-AR-11-003



Management’s Comments

Management agreed with the finding that excess space exists in a number of facilities,
agreed to the first two recommendations made, and stated they will have corrective
actions to address them in place by March 2011. Management in a separate email
conveyed agreement with the third recommendation and will also complete this action
by March 2011. While management agreed to develop a more accurate process and
additional metrics to better manage excess space, they did not agree with the amount of
excess space or the potential monetary impact reported. Specifically, they disagreed
with the methodology used to calculate existing excess space, in addition to the data
and cost factors used to value the excess space and calculate monetary impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors (they provided a picture of a
       basement mechanical room to exemplify the point).

    2. Unique operational functions not included in standard designs and inefficiencies
       in the current building layouts.
         
    3. Historic property.
         
    4. Parking and dock space requirements.
         
    5. Large inflexible retail lobbies.
         

In reference to the data and cost factors used in our calculations, management
disagreed with the:

       Building inventory and interior space results.

       Number of approved optimization studies reported.
         
       Commercial value of excess space.

       Average vacancy rate and absorption period for sublease space.
         
       Amount of finish allowance to restore excess space.
         
       Sublease efficiency rate used to calculate the amount of excess space that could
        potentially be successfully subleased.
         
       Build-out cost factors.




                                              3
Facility Optimization: Southwest Area                                          DA-AR-11-003



In addition, management believes the accurate way to calculate monetary impact is by
multiplying useable excess space by sublease value less conversion cost. This
calculated outcome should then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing of property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF. This represents 16 percent of all
buildings and 76 percent of total interior square footage. This allows the Postal Service
to capture the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments
Considering the rapid decline of workload and the dynamic nature of excess space, the
OIG considers management’s comments responsive to the recommendations.
Management’s corrective actions over time should resolve the issues identified in the
report. With respect to the methodology used to calculate excess space, we did not
determine whether the excess space identified was usable, in part because Postal
Service systems do not identify usable areas. We agree that realty management
policies and systems need to be updated to define usable areas. According to
commercial realty standards,4 usable areas are generally measured from “paint to paint”
inside the permanent walls to the middle of partitions. No deductions are made for
columns and projections necessary to the building. Our calculations reflect these
standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. According to commercial
realty standards, basement space is counted as usable and leasable areas. Mechanical
rooms are considered common areas which a proportionate share is allocated to a
tenant’s area. We did not include allowances for existing functions, building layout
inefficiencies, and inflexible spaces because the Postal Service’s current space
standards did not specify these allowances. Our audit focused on interior excess space,
thus, enclosed parking and dock spaces were outside the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. While we
agree that there are properties of the Postal Service that are historic in nature, we do
not feel this has a large impact in the presentation of our results. The number of eligible
historic buildings listed in the Postal Service’s systems account for less than 1 percent
of their properties. Also, while the Postal Service is required to consult with historical
organizations, they are not bound by these consultations or decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted

4
    www.boma.org.


                                             4
Facility Optimization: Southwest Area                                              DA-AR-11-003



at the facility and whether they were allotted the necessary space for those functions.
Conservatively, we did not consider performance measures such as street efficiency or
alternate access sales channels which would decrease the earned facility size and
increase excess space. We did not apply the standard building design criteria to plants
or administrative facilities. Administrative facilities were not in the scope of our review.
In those instances where administrative space was co-located with operational space,
we specifically excluded the administrative space from our calculations.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area or district level. As such, to determine build-out costs we used the
average build-out costs for the district as presented in their node studies. We note that
build-out costs are negotiable and lessees, at times, absorb the cost of conversion. We
built in several different tolerances relating to the size of excess space at sites reviewed
and considered the marketability of properties within the districts. Further, the multiple
actions, such as lease terminations, disposals, and space/lease reductions within the
approved node studies were acknowledged and reflected in our monetary impact
calculations.

We recognized realty market conditions and discounted our excess space calculations
by the national commercial vacancy rate of 13.3 percent. A review of Houston and
Oklahoma City realty prices indicated that the average commercial value we used in our
calculations ($7.34) is within a 10 to 50 percent discount rate range offered for space
quality and market conditions and is below the average General Services Administration
(GSA) lease rates. In reference to absorption costs, management incurs these costs at
lease initiation and is not relevant to the cash flow analysis. Therefore, using the Postal
Service’s cash flow method and cost of borrowing, we consider our presentation of the
level of excess space and value a reasonable estimate of the opportunity loss
associated with unproductive assets.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory and place itself in a better position to take advantage of its priority
status with the GSA.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                               5
Facility Optimization: Southwest Area                                        DA-AR-11-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Megan J. Brennan
    Tom A. Samra
    Jim D. Barnett
    William C. Rucker
    Garry A. Gilmore
    Julie A. Gosdin
    Corporate Audit and Response Management




                                            6
Facility Optimization: Southwest Area                                             DA-AR-11-003



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Southwest Area leases or owns over 885 facilities in the Oklahoma and Houston
Districts, covering nearly 7 million SF of interior space, for delivery and/or retail
operations to move the mail. The consolidation or closure of facilities is a widely
discussed topic due to declining mail volume and the resulting financial condition of the
Postal Service. In response, the Postal Service's Facilities and Retail Management
organizations have implemented initiatives to optimize space, namely, initiation of the
Facility Optimization Program and the Station and Branch Optimization Consolidation
(SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Southwest Area has three approved optimization studies in the Oklahoma District and
five in the Houston District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue.

In addition to the ongoing optimization studies and SBOC program, the districts have
taken the following initiatives to consolidate space:

       The Southwest Area Districts have initiated reviews of delivery optimizations. For
        example, at the time of our review, the Rio District had initiated Delivery Unit
        Optimization projects.

       There are seven Area Mail Processing (AMP) studies currently in process to
        optimize space at processing plants and there are two additional AMP studies
        planned for FY 2011.

       There is an AMP study awaiting approval for consolidating the Houston GPO, the
        Houston DDC, and the Houston District office into the North Houston Processing
        & Distribution Center.

In October 2010, the Postal Service consolidated optimization efforts to manage excess
space. The goal is to manage the excess space portfolio for all space types in one
overall optimization effort.




                                              7
Facility Optimization: Southwest Area                                                                   DA-AR-11-003



Currently, the Postal Service has a program in place to optimize carrier delivery facilities
through the use of node studies5. However, the Postal Service will now include mail
processing plants, retail facilities, small delivery units, administrative space, and carrier
delivery facilities in one overall optimization effort. The goal is to manage the excess
space portfolio for all space types in one overall initiative. This integrated effort between
Facilities Headquarters and the field offices will use computer modeling and equipment
analysis along with local analysis and metro planning to form a headquarters and
district/area partnership.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:

                                 Table 1 – Risk Metrics
                                    RERM Metrics
Ratio of Mail Volume to Interior SF            Excess USPS Identified Interior Space
Ratio Revenue to Interior SF                   Excess Land
Ratio of Total Expense to Interior SF          Facility Condition
Ratio of Employees to Interior SF              Density, Geographic Location
Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess interior space on a national basis;
two districts selected are in the Southwest Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Southwest Area to
optimize existing real estate. We visited 65 of 885 facilities6 in the Oklahoma and Houston
Districts, representing 49.5 percent of the OIG-calculated excess space when actual
interior space is compared to space standards. The scope of the audit primarily included
main post offices, carrier annexes, stations, branches, and mail processing facilities. To
accomplish our objective we visited selected facilities, conducted interviews, and
examined other relevant materials.

To calculate an earned7 facility size, we compared the workload data from Postal Service
databases8 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based the earned facility size on Postal Service criteria9 for

5
  Studies of consolidation for sites in a geographic radius.
6
  We excluded administrative facilities from our review.
7
  We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this newly established criteria, the Headquarters Facility Group, Planning and Approval,
designed Space Requirements Models (SRMs) to assist with the space requirements of planned facilities. We did not
test the reasonableness of the SRMs.
8
  Web Box Activity Tracking System (WebBATS) Monthly Summary Data for issued Post Office Box information,
Intelligent Mail and Address Quality (IMAQ) Delivery Statistics Summary for route information, and Retail Data Mart
for earned peak modeled window staffing.
9
  Space Requirements Matrix for Non-Flat Sequencing System (FSS) offices.


                                                           8
    Facility Optimization: Southwest Area                                                         DA-AR-11-003



    planning new space projects, which differs from existing Postal Service initiatives10
    because it focuses on the total facility size, not specific retail or delivery operations. We
    calculated excess space by taking the difference between earned facility size and actual
    interior SF reported in the electronic Facilities Management System (eFMS). For the
    plants, area operations management provided us the excess space data which we
    assessed for reasonableness.

    We conducted this performance audit from June 2010 to March 2011 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management officials on January 5, 2011, and
    included their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of computer
    generated information through observations during facility tours and interviewing agency
    officials knowledgeable about the data. We determined that the data was sufficiently
    reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to Postal Service’s facility infrastructure.

                         Report             Final Report         Monetary
 Report Title                                                                            Report Results
                         Number                 Date              Impact
Facility              DA-AR-10-008           8/25/2010         $157,963,990   The OIG identified 1.98 million SF of
Optimization:                                                                 excess space. The Postal Service
Northern New                                                                  agreed with the recommendations but
Jersey District                                                               disagreed with the monetary impact.
Facility              DA-AR-10-009           8/25/ 2010        $23,517,019    The OIG identified 740,000 SF of
Optimization:                                                                 excess space. The Postal Service
Chicago                                                                       agreed with the recommendations but
District                                                                      disagreed with the monetary impact.
Facility              DA-AR-10-010           8/25/2010         $446,258,222   The OIG identified 2.4 million SF of
Optimization :                                                                excess space. The Postal Service
New York                                                                      agreed with the recommendations but
District                                                                      disagreed with the monetary impact.




    10
         SBOC and Facilities Optimization Program.


                                                           9
    Facility Optimization: Southwest Area                                                   DA-AR-11-003




                     Report             Final Report        Monetary
 Report Title                                                                     Report Results
                    Number                  Date             Impact
Restructuring     GAO-09-937SP           7/28/2009            None     The Government Accountability Office
the U.S. Postal                                                        added the U.S. Postal Service’s
Service to                                                             financial condition to the list of high-
Achieve                                                                risk areas needing Congress'
Sustainable                                                            attention and the executive branch to
Financial                                                              achieve broad-based transformation.
Viability                                                              It recognized the need to reduce the
                                                                       facility infrastructure. There was no
                                                                       Postal Service response in the report.
Federal Real      GAO-09-801T         7/15/2009         None           Federal agencies have taken some
Property: An                                                           positive steps to address real property
Update on                                                              issues but some of the core problems
High Risk                                                              that led to designation of this area as
Issues                                                                 high-risk continue to persist. There
                                                                       was no Postal Service response in the
                                                                       report.
Network           GAO-09-674T         5/20/2009         None           The Postal Service will require action
Rightsizing                                                            in a number of areas, such as
Needed to                                                              rightsizing its retail and mail
Help Keep                                                              processing networks by consolidating
USPS                                                                   operations and closing unnecessary
Financially                                                            facilities. The Postal Service generally
Viable                                                                 agreed with the accuracy of the
                                                                       statements and provided technical
                                                                       comments, which were incorporated.




                                                       10
Facility Optimization: Southwest Area                                                                    DA-AR-11-003



                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Southwest Area

Based on facility space requirements,11 we calculated that the districts reviewed in the
Southwest Area maintain 2.3 million SF more than what is required for current
operational workload, thus can be considered potential excess space. As depicted in
Chart 1, excess space was at least 34 percent of the total interior square footage.

                      Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess space for the 65
visited facilities in the Southwest Area is represented in Table 2. Main post offices and
stations contributed 29 percent and 28 percent of the excess space, respectively, while
plants (18 percent) and carrier annexes (10 percent) followed to a lesser degree.

                         Table 2 – Excess Space by Facility Type Visited
                              Facility                                            OIG-              Interior
           Facility                           Percentage     Percentage
                               Type                                            Calculated           Square
            Type                               of Count       of Excess
                              Count                                            Excess SF            Footage
      Main Post Office                   6        10.2%            28.9%           259,185             490,535
      Station                         30          50.8%            28.2%             252,781            605,081
      Carrier Annex                   11          18.6%            11.3%             101,101            193,423
      Branch                             2          3.4%             2.2%             19,826              42,326
      Plant                              3          5.1%           21.8%             195,304            458,039
      Finance Station                    7        11.9%              7.6%             67,746              94,746
                                         12
              Total                 59             100%             100%             895,943          1,884,150

11
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.
12
   Although we visited 65 sites, this table only includes sites at which we identified excess space. We identified no
excess space at six sites.


                                                           11
      Facility Optimization: Southwest Area                                          DA-AR-11-003



      To highlight excess space in the Southwest Area, Illustration 1 depicts two facilities with
      excess interior space. The Sam Houston Carrier Annex is a Postal Service-owned
      facility containing only delivery operations. The Tulsa MPO is a large
      Postal Service-owned facility that previously functioned as the Tulsa Processing and
      Distribution Center, but currently contains only delivery and retail operations. According
      to our calculations, 91 percent of the sites visited contained excess space, ranging from
      310 SF to 213,636 SF.

                           Illustration 1 – Examples of Excess Space
Sam Houston Carrier Annex                        Tulsa Main Post Office
1500 Hadley Street                               333 W 4th Street
Houston, Texas                                   Tulsa, Oklahoma
Interior Square Footage: 25,206                  Interior Square Footage: 392,586
OIG-Calculated Excess SF: 18,706                 OIG-Calculated Excess SF: 213,636




      Causes for Excess Interior Space

      The opportunity to optimize excess interior space in the Southwest Area exists because:

             Postal Service policy requires installation heads to report excess space, but does
              not provide the necessary guidance to effectively accomplish this task.

             Facility systems do not track metrics such as dates or space conditions to allow
              effective management of excess space.

      Guidance Can Be Improved

      A review of the facility database user guide shows it does not provide sufficient
      guidance for identifying excess space using the workload-driven space requirements.


                                                  12
Facility Optimization: Southwest Area                                         DA-AR-11-003



For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
59 of the 65 Postal Service facilities we visited, only one location answered “yes” to our
survey question concerning vacant leasable space. Further, our interviews revealed
Operations' employees were unaware of the methodology used to identify excess space
at their facilities. As a result, we identified over 2.3 million SF of excess space in the
Oklahoma and Houston Districts.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing a considerable workload decline which has resulted
in significant excess space. However, the electronic system that manages facility space
does not collect or monitor metrics such as length of time space is underused or vacant
and the condition of excess space in order to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
GSA realty management practices and found that GSA “ages” its available space for
tracking, monitoring, and decision-making. The Postal Service does not have the ability
to age excess space as it does not collect dates on entry.

GSA’s Public Buildings Service also manages its leased portfolio by focusing on four
primary areas: reducing vacancy, managing lease administration expenses, managing
customer requirements, and analyzing market trends. Similarly, GSA-owned facilities
are monitored and analyzed using performance metrics such as revenue, funds from
operations, operating costs, vacancy, net operating income, and return on equity. The
Postal Service's facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database.

We estimate if the Southwest Area initiated disposal actions for the districts reviewed,
there is a potential opportunity to realize $99,618,00713 over typical and remaining lease
terms. This amount is considered funds that could be used more efficiently by
implementing recommended actions. See Appendix C for the monetary impact
calculation and assumptions.




13
     The annualized savings is $9,961,801.



                                             13
       Facility Optimization: Southwest Area                                                                  DA-AR-11-003



       Opportunity to Fulfill Federal Space Needs

       GSA is the nation's largest public real estate organization. It provides workspace for
       more than one million federal workers through its Public Buildings Service. According to
       the Code of Federal Regulations (CFR), in situations when GSA-controlled space is not
       available, federal agencies must extend priority consideration to available space in
       Postal Service buildings.14

       Our audit noted that the Postal Service can be more aggressive in seeking opportunities
       to fill the space needs of federal entities. Table 3 illustrates the potential fulfillment
       opportunities in the two Southwest Area Districts we reviewed. Specifically, it shows that
       GSA leases on behalf of federal entities primarily from the commercial sector rather
       than the Postal Service. Space requirements were greater than the excess space
       identified in Postal Service facilities. GSA paid considerably more per square foot than
       the value assigned to the Postal Service space.15

                          Table 3 – Postal Service Excess Space Lease Opportunity
                                                            Postal      Existing                                 Number of GSA
                    GSA                          GSA                                  GSA           OIG
                                   OIG                      Service      GSA/                                    Leases Excess
 Districts         Leased                       Facility                             Average      Average
                                Excess SF                   Facility     USPS                                      Space may
                     SF                         Count                                SF Cost      SF Value
                                                             Count      Leases                                   Accommodate

Oklahoma          1,487,696       1,322,853          115         370            6      $17.57         $7.34      106 of 115   92%
Houston           1,688,040       1,039,475          111         203            9      $23.27         $8.51       85 of 111   77%
  Totals          3,175,736       2,362,328          226         573           15      $14.94         $7.85      191 of 226   85%


       Table 3 and Appendix D also illustrate the strong correlation between space
       leased by the GSA and the ability of the Postal Service to significantly
       accommodate federal space needs. For the two districts reviewed, we estimate
       that Postal Service excess space may accommodate 191 of 226 (or 85 percent)
       of current federal leases. However, we understand that more information is
       necessary before determining whether the Postal Service’s excess space would
       be suitable.




       14
            41 CFR 102-73.25.
       15
            We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.


                                                                 14
Facility Optimization: Western Area Districts                                                                                                  DA-AR-11-003



                                                        APPENDIX C: MONETARY IMPACTS

                                                                 Funds Put To Better Use

Houston Excess Interior Space Monetary Impacts

Project year                                0               1               2                3              4              5              6              7              8            9

Fiscal year                              2011            2012            2013             2014           2015           2016           2017           2018           2019         2020



Owned

Sublease Value                  ($13,521,881)      $7,435,231      $7,435,231       $7,435,231     $7,435,231     $7,435,231     $7,435,231      $7,435,231    $1,858,808

Utility Savings                                    $1,852,604      $1,895,214       $1,938,804     $1,983,396     $2,029,014     $2,075,682      $2,123,422      $543,065

Custodial Savings                                  $2,009,193      $2,009,193       $2,009,193     $2,009,193     $2,009,193     $2,009,193      $2,009,193      $502,298

Leases Expiring FY 2011

Sublease Value                     ($495,880)        $272,668        $272,668        $272,668        $272,668       $272,668

Utility Savings                                       $67,939         $69,502           $71,101       $72,736        $74,409
Custodial Savings                                     $73,682         $73,682           $73,682       $73,682        $73,682

Leases Expiring After
10/1/2011
Sublease Value                   ($1,734,450)        $953,716        $767,296        $642,529        $560,451       $501,701       $463,624       $340,175       $299,911     $188,862

Utility Savings                                      $237,633        $195,581        $167,545        $149,504       $136,910       $129,429        $97,150        $87,621      $56,447

Custodial Savings                                    $257,719        $207,343        $173,628        $151,448       $135,573       $125,283        $91,924        $81,044      $51,036



Subtotal                        ($15,752,211)     $13,160,385     $12,925,710      $12,784,379    $12,708,309    $12,668,380    $12,238,441     $12,097,096    $3,372,747     $296,345

Cash Flows @ Sub Lease          ($13,657,167)     $11,410,054     $11,206,591      $11,084,057    $11,018,104    $10,983,486    $10,610,729     $10,488,182    $2,924,172     $256,931
Efficiency Rate
Discounted at Postal Service   ($13,657,166.7)   $10,984,408.1   $10,386,074.6    $9,889,302.0    $9,463,737.9   $9,082,073.4   $8,446,542.8   $8,037,536.5   $2,157,320.0   $182,480.6
cost of borrowing
                                                                        Net Present Value: $54,972,309 


                               Build-Out Costs SF                                $30.84          Utilities Savings SF per Year $2.12
                               Lease Savings SF per Year                         $8.51           Utility Cost Escalation Rate 2.30%
                               Postal Service Cost of Borrowing                           3.875%          Custodial Rate SF          $2.30



                                                                                   15
Facility Optimization: Southwest Area                                                                                                        DA-AR-11-003




Oklahoma Excess Interior Space Monetary Impacts

Project year                                0               1              2               3             4              5              6              7              8             9
Fiscal year                             2011            2012           2013             2014         2015           2016           2017           2018           2019           2020



Owned

Sublease Value                  ($15,981,798)      $7,577,263     $7,577,263     $7,577,263     $7,577,263     $7,577,263     $7,577,263     $7,577,263     $1,894,316

Utility Savings                                    $1,330,875     $1,361,485     $1,392,799     $1,424,833     $1,457,605     $1,491,129     $1,525,425      $390,128

Custodial Savings                                  $1,043,746     $1,043,746     $1,043,746     $1,043,746     $1,043,746     $1,043,746     $1,043,746      $260,936

Leases Expiring FY 2011

Sublease Value                   ($1,102,349)        $522,644      $522,644        $522,644      $522,644       $522,644

Utility Savings                                       $91,797        $93,909        $96,069        $98,278      $100,539

Custodial Savings                                     $71,993        $71,993        $71,993        $71,993        $71,993

Leases Expiring After
10/1/2011
Sublease Value                   ($3,336,889)      $1,582,080     $1,119,170       $771,076      $531,076       $367,431       $325,008        $282,878      $251,419       $238,393

Utility Savings                                      $277,877      $201,093        $141,734        $99,864        $70,681        $63,958        $56,948        $51,779       $50,225

Custodial Savings                                    $217,927      $154,162        $106,213        $73,154        $50,613        $44,769        $38,966        $34,632       $32,838



Subtotal                         ($20,421,037)     $12,716,202    $12,145,464     $11,723,536   $11,442,850    $11,262,513    $10,545,873     $10,525,226    $2,883,210     $321,457

Cash Flows @ Sub Lease           ($17,705,039)     $11,024,947    $10,530,118     $10,164,306    $9,920,951     $9,764,598     $9,143,272      $9,125,371    $2,499,743     $278,703
Efficiency Rate
Discounted at Postal Service    ($17,705,038.8)   $10,613,667.5   $9,759,131.1   $9,068,691.3   $8,521,365.1   $8,074,194.4   $7,278,391.4   $6,993,156.7   $1,844,195.8   $197,944.0
cost of borrowing


                                                                       Net Present Value: $44,645,698


                               Build-Out Costs SF                              $19.76          Utilities Savings SF per Year $1.29
                               Lease Savings SF per Year                       $7.34           Utility Cost Escalation Rate 2.30%
                               Postal Service Cost of Borrowing                         3.875%          Custodial Rate SF          $1.01




                                                                                  16
Facility Optimization: Western Area Districts                                                          DA-AR-11-003




Value Assigned to the Excess Space

Table 4 shows the value per square foot for both districts. Using the Facility Inventory
Reports from the eFMS, we calculated this figure by dividing total interior square
footage by the total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for both districts. Using the information
from line 42 in the Financial Performance Report (FPR), we calculated this figure by
dividing the total annual utility expenses by the district’s total interior square footage,
with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for both districts. We calculated
this cost by dividing the total annual maintenance expenses16 by the district’s total
interior square footage. However, we reduced the cost by 50 percent, based on savings
previously identified in a prior custodial maintenance audit.17

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for both districts. These figures reflect
the average build-out cost per square foot for the Southwest Area, calculated at
$15.4818. We calculated the area build-out cost per square foot by dividing the
“build-out/Line 63 capital” costs for all approved optimization node studies in the
Southwest Area by the total reduction in square footage identified in the approved node
studies.

                        Table 4 – Square Footage Costs by District
                               Lease     Utility Maintenance       Build out
               District
                              Cost/SF Cost/SF      Cost/SF         Cost/SF19
           Houston               $8.51     $2.12        $2.30           $15.48
           Oklahoma              $7.34     $1.29        $1.01           $15.48




16
   eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs
17
   Custodial Maintenance Audit Report, (Report Number DA-AR-09-011, dated August 13, 2009).
18
   Build out costs per SF calculated for the Houston and Oklahoma districts—$6.51 and $40.51, respectively—vary
greatly from the average build out cost per SF calculated for the entire Southwest Area. As a result, we applied the
more conservative Area build out cost average to both districts.
19
   While build out costs are negotiable and at times, paid for by the lessor, these costs ranged from $0 per SF to
   $120.92 per SF in the node studies analyzed.

                                                          17
Facility Optimization: Southwest Area                                       DA-AR-11-003



Ownership of Facility and Term Years

We categorized all facilities in the district by ownership status – leased versus
Postal Service-owned. We further grouped the leased properties by the number of term
years remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these leases would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011 for the remaining lease term. We calculated owned
facilities over a period of 7.3 years, which was the historical national average lease
term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent “success rate.”




                                          18
Facility Optimization: Southwest Area                                         DA-AR-11-003



                      APPENDIX D: GSA-LEASED PROPERTIES
                   COMPARED TO POSTAL SERVICE EXCESS SPACE

Houston District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.




                                                                  GSA               OIG
                                                 Building
                                                                 Leased          Identified
                                                  Size
                                                                Facilities        Excess
                                                   1,000                  8               55
                                                   5,000                 23               76
                                                  10,000                 30               34
                                                  20,000                 23               37
                                                  30,000                 13                0
                                                  40,000                  9                1
                                                  50,000                  2                0
                                                   More                   3                0
                                                Total Count             111              203




                                          19
Facility Optimization: Southwest Area                                        DA-AR-11-003



Oklahoma District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                  GSA           OIG
                                                  Building
                                                                 Leased      Identified
                                                   Size
                                                                Facilities    Excess
                                                    1,000              12            188
                                                    5,000              42            130
                                                   10,000              34             34
                                                   20,000              12              9
                                                   30,000               6              5
                                                   40,000               2              2
                                                   50,000               1              0
                                                    More                6              2
                                                 Total Count          115            370




                                          20
Facility Optimization: Southwest Area                       DA-AR-11-003



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                        21
Facility Optimization: Southwest Area        DA-AR-11-003




                                        22
Facility Optimization: Southwest Area        DA-AR-11-003




                                        23
Facility Optimization: Southwest Area        DA-AR-11-003




                                        24
Facility Optimization: Southwest Area        DA-AR-11-003




                                        25
Facility Optimization: Southwest Area        DA-AR-11-003




                                        26
